<html>
<title> - [H.A.S.C. No. 111-185]THE CRISIS IN THE DEMOCRATIC REPUBLIC OF THE CONGO: IMPLICATIONS FOR U.S. NATIONAL SECURITY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 111-185]

 THE CRISIS IN THE DEMOCRATIC REPUBLIC OF THE CONGO: IMPLICATIONS FOR 
                         U.S. NATIONAL SECURITY

                               __________

                                HEARING

                               BEFORE THE

   SUBCOMMITTEE ON TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           NOVEMBER 30, 2010



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>







                      U.S. GOVERNMENT PRINTING OFFICE
  63-122 PDF               WASHINGTON : 2010
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91f6e1fed1f2e4e2e5f9f4fde1bff2fefcbf">[email&#160;protected]</a>  




   SUBCOMMITTEE ON TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES

                LORETTA SANCHEZ, California, Chairwoman
ADAM SMITH, Washington               JEFF MILLER, Florida
MIKE McINTYRE, North Carolina        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           JOHN KLINE, Minnesota
JAMES R. LANGEVIN, Rhode Island      K. MICHAEL CONAWAY, Texas
JIM COOPER, Tennessee                THOMAS J. ROONEY, Florida
JIM MARSHALL, Georgia                MAC THORNBERRY, Texas
BRAD ELLSWORTH, Indiana              CHARLES K. DJOU, Hawaii
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
                Peter Villano, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                      Jeff Cullen, Staff Assistant










                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Tuesday, November 30, 2010, The Crisis in the Democratic Republic 
  of the Congo: Implications for U.S. National Security..........     1

Appendix:

Tuesday, November 30, 2010.......................................    29
                              ----------                              

                       TUESDAY, NOVEMBER 30, 2010
 THE CRISIS IN THE DEMOCRATIC REPUBLIC OF THE CONGO: IMPLICATIONS FOR 
                         U.S. NATIONAL SECURITY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Sanchez, Hon. Loretta, a Representative from California, 
  Chairwoman, Subcommittee on Terrorism, Unconventional Threats 
  and Capabilities...............................................     1

                               WITNESSES

Dagne, Ted, Specialist in African Affairs, Congressional Research 
  Service........................................................     3
Komorowski, Adam, Regional Head of Operations, Africa Mines 
  Advisory Group (MAG) International.............................     7
Prendergast, John, Former Director of African Affairs, National 
  Security Council...............................................     5

                                APPENDIX

Prepared Statements:

    Dagne, Ted...................................................    38
    Komorowski, Adam.............................................    54
    Miller, Hon. Jeff............................................    34
    Prendergast, John............................................    44
    Sanchez, Hon. Loretta........................................    33

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]

 
 THE CRISIS IN THE DEMOCRATIC REPUBLIC OF THE CONGO: IMPLICATIONS FOR 
                         U.S. NATIONAL SECURITY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                  Subcommittee on Terrorism, Unconventional
                                  Threats and Capabilities,
                        Washington, DC, Tuesday, November 30, 2010.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2118, Rayburn House Office Building, Hon. Loretta Sanchez 
(chairwoman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE 
    FROM CALIFORNIA, CHAIRWOMAN, SUBCOMMITTEE ON TERRORISM, 
            UNCONVENTIONAL THREATS AND CAPABILITIES

    Ms. Sanchez. The subcommittee will now come to order.
    Good afternoon. We meet today to discuss the ongoing crisis 
in the Democratic Republic of Congo and examine the related 
implications for U.S. national security.
    Within Africa the Democratic Republic of Congo has always 
held strategic importance, due to its large size and central 
location, as well, of course, all its natural resources. For 
decades the Congo has experienced varying degrees of political 
instability and violence, and it is estimated that more than 5 
million people have died there due to preventable disease and 
war-related causes. The violence is additionally troubling 
because of the high degree of gender-based and sexual violence, 
which appears to have become frighteningly commonplace there.
    In the midst of this violence the Congo has been the site 
of one of the largest and most expensive United Nations [U.N.] 
peacekeeping missions in the world. Changes in this U.N. 
mission are on the horizon, and the Congolese government 
recently asked for a gradual withdrawal of the U.N. 
peacekeeping force that is there.
    Nearly 1,500 U.N. peacekeeping troops have been withdrawn 
since May of this year. And since the Congo will also host 
presidential and legislative elections in November of 2011, I 
think that the time is right for the U.S. and others to 
consider how these changes would impact security and stability 
in the region and to prepare accordingly.
    With its porous borders, its weak institutions and its 
close proximity to East African countries, such as Uganda and 
Sudan, transnational terrorist threats should not be ruled out 
when we seek to understand U.S. national security concerns 
associated with the Congo and with the Great Lakes region. This 
point is critical to our subcommittee, which deals with 
terrorism, unconventional threats and capabilities. And 
although few transnational terrorist threats have been directly 
linked to the Congo, Al Qaeda and affiliated groups have had a 
presence in neighboring East Africa for almost 20 years. And 
the recent attacks in Kampala, Uganda, this past July remind us 
of how linked these issues have become.
    The Department of Defense [DOD] has been active in Africa 
and within the Congo and neighboring countries. Through our 
U.S. Africa Command [AFRICOM], the United States has worked to 
improve the capacity of the Congolese military, and it has 
sought to develop an army that is accountable to the Congolese 
people. More specifically, our Special Operations Forces have 
been focused on training, teaching and mentoring the Congolese 
army and have worked to create a model battalion that can in 
turn train and professionalize the rest of the Congolese Army.
    So I am pleased that one of the major goals and components 
of U.S. training and assistance has been to improve the human 
rights practices of that Congolese army. And with this in mind, 
I am really thrilled about the hearing today.
    Unfortunately, I won't be able to stay the entire time. I 
have asked Mr. Smith when I leave to take over, and I know this 
is a topic that he is incredibly interested in also.
    So I thank the witnesses for being before us.
    And Mr. Conaway, from the Republican side, hello.
    [The prepared statement of Ms. Sanchez can be found in the 
Appendix on page 33.]
    Mr. Conaway. Thank you, Madam Chairman.
    And the ranking member has an outstanding opening statement 
to put in the record. I would, rather than prove to you that my 
third grade teacher taught me to read aloud, I will ask 
unanimous consent to introduce it into the record and get right 
to the witnesses.
    [The prepared statement of Mr. Miller can be found in the 
Appendix on page 34.]
    Ms. Sanchez. So be it. Great.
    So we will move forward. And today we have three witnesses 
before us.
    Let me make sure that I have your names correct, gentlemen.
    We are fortunate to have a panel of three experts. First, 
we will hear from Mr. Ted Dagne, an expert in African Affairs 
at the Congressional Research Service. Then we will hear from 
John Prendergast, the former director of African affairs at the 
National Security Council and co-founder of the non-
governmental organization The Enough Project that seeks to 
raise awareness and develop policy solutions that prevent 
genocide and crimes against humanity in the Congo and in the 
region. And, lastly, we are joined by Adam Komorowski of the 
Mines Advisory Group [MAG], an international NGO [Non-
Governmental Organization] that works to limit the spread of 
illicit weapons used by illegally armed groups in the region.
    Thank you for appearing before the subcommittee and 
discussing this critically important topic. And I believe we 
will adhere to the 5-minute rule, which means you can tell us 
whatever you want, summarize your statements within 5 minutes 
apiece, and then we will go to questions. And we will be under 
the 5-minute rule for the members of the committee also.
    So we will start with Mr. Dagne, please.

    STATEMENT OF TED DAGNE, SPECIALIST IN AFRICAN AFFAIRS, 
                 CONGRESSIONAL RESEARCH SERVICE

    Mr. Dagne. Chairwoman Sanchez, members of the subcommittee, 
thank you for the opportunity to testify before your committee.
    I have a longer statement for the record. I will simply 
summarize my statement focused on the rebel groups and their 
activities and if there are any linkages to international or 
original terrorist organizations.
    But to give you an overview briefly of the Congo, the Congo 
has been in political humanitarian turmoil for the past, not 
decade, for the past at least four decades. This is in large 
part due I think to neglect and to the government's inability, 
successive governments' inability to govern in a democratic 
way.
    When I talk about neglect, it is basically the main source, 
the root cause of the problem. For many Congolese governments 
over the years and political leaders Kinshasa was for them the 
country, not Goma, not Kisangani, no other places. But the 
other important thing to point out is that the government in 
power often provides the benefits to those who are close to 
them and not to the people.
    To give you an example, back in the mid 1990s, 1996, I went 
to Goma, the place where the two major wars started, with a 
congressional delegation. That was the first liberated town in 
1996. And I met Laurent Kabila, who would become president a 
year later. And I asked him, he was in a mansion, lush green 
lawns, gold-plated sofas, you name it. Outside, no electricity, 
not a single paved road, and people dependent on food aid.
    I asked him, I said, ``aren't you concerned that you live 
in this mansion while your people outside are still 
suffering?''
    His response was, ``I am their leader; when I become 
president, things will change.'' Things did not change. There 
was more war, poverty and suffering for the Congolese people.
    I don't want to give you, you know, this picture of a Congo 
in a total chaos. I think you find, over the past at least 
seven, eight years, some relative stability in other parts of 
Congo, and the political conditions have improved 
significantly, but not for eastern Congo.
    You had an agreement in 2003 whereby the major rebel groups 
were incorporated into the political process. You had elections 
that were held in 2006, and the next one is expected in 2011, a 
year from now.
    But I think what is important to point out is that the 
Congo crisis wasn't simply a crisis for the Congolese, but it 
was for the entire region. In fact, in the 90s, we used to 
refer to it as Africa's Third World War because you had over 
half a dozen African countries involved in the Congolese 
conflict on one side or the other.
    Over the past several years, things have changed and 
relationships between the Congolese government and that of 
their neighbors. Rwanda, once considered enemy number one by 
Congo, they are now allies. And in fact, in 2009, they 
conducted a joint military offensive against some of the rebel 
groups internally.
    But the most important thing to point out is that the 
Congolese problem is tied to the existence of rebel groups, or 
we call them negative groups, who do not really have a 
political agenda, but some of them basically embrace the idea 
of terrorizing the civilian population. The main targets have 
been civilian population. I will go through some of them, some 
of the main groups.
    The first one I would say is the Democratic Forces for the 
Liberation of Rwanda [FDLR]. It is a Rwandese rebel group. The 
leadership of the FDLR consist of those who belong to what we 
used to refer to as the Interahamwe militia, the militia that 
carried out the genocide in 1994, and the former Rwandese army 
leadership. They have been in operation in eastern Congo for 
over a decade and a half. Their main objective is to terrorize 
the civilian population, particularly the Tutsi, and also to 
hopefully overthrow the government of Rwanda, their main 
operation from Congo.
    The other group is the National Congress for the Defense of 
the People [CNDP]. This is a Congolese group with some Rwandese 
involved. This group has also been operational in eastern Congo 
for several years. Their main objective, they claim, was to 
defend the Tutsi against the FDLR. In 2009, the joint offensive 
by the Rwandese and Congolese government was targeting the FDLR 
and the CNDP.
    The leader of the CNDP, Laurent Nkunda, was once an ally of 
the Rwandese government. Shortly after the military offensive 
began, he ran to the border with Rwanda expecting that he would 
be welcomed, and instead, he was arrested, and he still is 
under house arrest in Rwanda.
    The CNDP no longer exists as a cohesive group. A number of 
their fighters have been integrated into the Congolese army and 
a number of others have basically functioned independently of 
the organization.
    The other group is the Allied Democratic Forces, ADF. That 
is a Ugandan Muslim group operational near the border with 
Uganda. They don't have a lot of military power, but one must 
point out that the ADF had been engaged in terrorist activities 
as early as the mid-1990s in Uganda. They have carried out a 
number of bombings in Kampala and other places in 1998.
    ADF is also the one organization that has a link now with 
al-Shabaab, the Somali group that carried out the attack in 
Kampala. In June, the Congolese forces launched an offensive 
against the ADF, and they were able to obtain documentation and 
equipment that linked them directly to al-Shabaab. That 
relationship still exists, and a number of ADF operatives are 
currently in custody suspected of the attack, the Kampala 
attack, in July of this year.
    The other group is the Mai Mai militia. It is a loosely 
grouped set of militia. No political objectives, basically 
carrying out attacks against civilian U.N. peacekeepers or 
anyone they think that they can get money, food or whatever 
benefits that they can get out of it.
    The Lord's Resistance Army, another Rwandan group, is also 
operational in Congo. But the LRA [Lord's Resistance Army] is 
also very much operational in the Central African Republic and 
in parts of South Sudan. It has been weakened over the past 5 
years but remains a threat to the civilian population. No 
linkage with international terrorist organizations at this 
point.
    Ms. Sanchez. Mr. Dagne, you are about 3 minutes over.
    Mr. Dagne. I am done. Thank you very much.
    [The prepared statement of Mr. Dagne can be found in the 
Appendix on page 38.]
    Ms. Sanchez. Okay. I am sure we can come back to your 
report and ask you specific questions with respect to it.
    Our next speaker, Mr. Prendergast, please.

   STATEMENT OF JOHN PRENDERGAST, FORMER DIRECTOR OF AFRICAN 
               AFFAIRS, NATIONAL SECURITY COUNCIL

    Mr. Prendergast. Thanks very much, Chairwoman Sanchez, and 
the members of the subcommittee.
    Like Mr. Dagne, I will submit my written testimony for the 
record and make an oral statement.
    I just returned from the Congo, from the eastern Congo, 48 
hours ago. My team and I interviewed a number of women and 
girls who recounted their tales of horror involving mass rape 
and other terrible atrocities. Mass rape has become the 
signature crime against humanity in this war. It is a war that 
is driven primarily by the exploitation of minerals, as you 
said in your opening statement, and they are minerals that 
power our cell phones and our laptops that we all use every 
day.
    Now, unlike most of the conflicts that I have worked on for 
the last 25 years in Africa, this one we have a direct 
connection, a direct responsibility, because of our demand for 
these minerals in the products that we use every day. So, 
because of that direct link, we therefore have a potential 
influence and a potential opportunity to help bring that war to 
an end if we change that relationship between consumers and 
producers on the ground there.
    I don't want to give you a laundry list of things that the 
United States should do. This isn't Afghanistan. This isn't 
Iraq. We have very limited resources at this juncture in our 
history.
    So I want to focus on two things that I think, with U.S. 
leadership and a small investment, that we could actually help 
catalyze real change on the ground in the Congo and bring an 
end to some of the most horrific violence that we have ever 
seen on the face of the earth against women and girls.
    These two things are mineral certification and Security 
Sector Reform, SSR. Let's start with the latter one, with SSR.
    The Congolese army, and Ted, Mr. Dagne, was talking a bit 
about that, the Congolese army is the biggest--one of the 
biggest sources of instability on the ground in human rights 
violations in the country. So if we try to work around the army 
in whatever we do as a government in our investments, we will 
have no impact. We need to take the challenge of reforming that 
army head-on.
    And we should start with a major investment in 
professionalization and training of the army in coordination 
with other governments. In particular, we have this incredible 
comparative advantage, I think, in military justice, and 
AFRICOM could play a credible role in building that military 
justice system. We have got to bring this state of impunity 
that soldiers have on the ground in Congo to an end in some 
way, shape or form. And you can begin to do that through the 
infusion of resources and support and training for the justice 
system within the army.
    Until the army, I think, gets reformed, we are going to see 
this violence, particularly sexual violence, remain at epidemic 
levels.
    Now, this isn't a novel idea. We have tried little bits and 
pieces of army reform over the last decade. So what's 
different? The critical difference, I think, is that we are 
finally making efforts internationally to expose and undermine 
the mafia networks that control the mineral smuggling 
industries that end up exporting these minerals into the 
products that we use.
    Now, the military in the Congo is knee-deep in these mafia 
networks, and until we address, therefore, until we address the 
economic roots of the conflict, of violence, of state 
dysfunction, we have no chance of building legitimate 
government institutions, like a reformed military and police.
    Now, the good news is that the U.S. Congress has taken the 
lead in addressing these economic roots. For the first time in 
Congo's history, we actually have efforts under way to try to 
address that relationship of how we extract Congo's rich 
natural resource base.
    Section 1502 of the Wall Street Reform Bill Act deals--
dealt directly with the link between the violence in the Congo 
and our electronics products and other things we use every day. 
The next steps, now that that bill has passed and President 
Obama has signed it, are to ensure that the SEC [Securities and 
Exchange Commission] regulations that are implement--that will 
demonstrate or that will modify how that bill is implemented, 
those SEC regulations have to be strong. And Members of 
Congress have a great role to play in ensuring that that is the 
case.
    And for the U.S., particularly led by Secretary Clinton, 
who visited Congo and has repeatedly talked about the 
importance of it to her as an issue for her, for her 
leadership, is for the U.S. to take the lead in creating an 
internationally negotiated certification, mineral 
certification, scheme, which will involve the industry, involve 
governments and civil society organizations, just like the 
blood diamonds.
    You know, ten years ago, when governments internationally 
worked together with the diamond industry and created a system 
to weed out blood diamonds, that gave people in Sierra Leone a 
chance and Liberia and Angola a chance, those wars were over in 
two years, all three of them.
    This is the same thing. If we deal with those economic 
roots, we have a chance then to work on all the kinds of things 
that this committee has a direct role to play and, 
particularly, army reform.
    So these are the two keys: Deal with the economic roots of 
violence and build a legitimate security sector in Congo, so 
that the army becomes a protector, not a predator, to the 
people in the Congo. If the U.S. does these two things, I would 
argue, the odds for peace in the Congo increase dramatically. 
It is not an exaggeration to say that millions of Congolese 
lives hang in the balance in terms of what we do or don't do in 
the Congo.
    Thank you very much.
    [The prepared statement of Mr. Prendergast can be found in 
the Appendix on page 44.]
    Ms. Sanchez. Thank you, Mr. Prendergast.
    I am going to turn this over now to my very able colleague, 
Mr. Smith.
    But I have just a quick question. Mr. Prendergast, when you 
mentioned mafia network, were you using mafia as an adjective 
or as a noun?
    Mr. Prendergast. That is a great question. I think it is 
more of an adjective describing the nature of the illicit 
violent extractive networks that are part and parcel of getting 
those minerals out through the region into the international 
marketplace.
    Ms. Sanchez. Okay. Great. That is what I thought. But I 
just wanted to make sure you weren't going after the Sicilians.
    Mr. Prendergast. Thank you. Thanks for that clarification.
    Mr. Smith. Sorry, Mr. Komorowski. You may proceed.

  STATEMENT OF ADAM KOMOROWSKI, REGIONAL HEAD OF OPERATIONS, 
        AFRICA MINES ADVISORY GROUP (MAG) INTERNATIONAL

    Mr. Komorowski. Thank you very much.
    As per the previous speakers, I will provide you with a 
brief summary of my submitted written testimony.
    Thank you very much for inviting me to address the 
subcommittee on behalf of the Mines Advisory Group on issues 
relating to the conflict landscape of the Democratic Republic 
of Congo.
    In the testimony, I am going to cover a number of 
operational issues and draw on the six years of experience and 
learning that we have gathered from our work on the ground.
    As mentioned before, DRC [Democratic Republic of the Congo] 
has expansive porous borders. To put that into context, it 
shares a total of 10,730 kilometers of border with nine 
countries, many of which are experiencing or have experienced 
significant instability.
    Across the country and in the east of Congo in particular, 
ongoing conflicts and tribal allegiances mean that official 
political borders with other countries can become very blurred. 
Conflicts regularly flare up in border areas, with easy access 
to arms exacerbating and, in many cases, fueling violence.
    Armed groups, as, again, already referenced, from 
neighboring countries, such as Rwanda, Burundi and Uganda 
continue to operate out to the largely ungoverned spaces in 
eastern Congo. The trafficking and easy availability of small 
arms and light weapons substantially contributes to the 
continued instability and the armament of these groups.
    Furthermore, a recent UNDP [United Nations Development 
Program] report estimates that there are approximately 300,000 
weapons in civilian hands in eastern Congo. However, the 
quantity of arms currently in the hands of armed rebel groups 
operating in this region is unknown. Both the U.N. Group of 
Experts on Congo and UNDP found that a significant number of 
these weapons originally came from military stockpiles due to 
thefts and seizures by armed groups, diversion of arms by 
military officers, and desertion and demobilization of military 
personnel.
    Since 2007, with the support of donors, including the 
Department of State's Office of Weapons Removal and Abatement, 
MAG has been involved in extensive weapons and ammunition 
destruction activities. Over this period, we have destroyed 718 
tons of ammunition and more than 107,000 small arms and light 
weapons.
    We believe that a cautious and pragmatic approach to 
working with the army is absolutely essential to making 
progress on the critical issues of weapons management and 
disposal. MAG works in close collaboration with the FARDC 
[Forces Armees de la Republique Democratique du Congo], taking 
a consistent line of pragmatic engagements. And this strategic 
decision has paid dividends to date in terms of the success of 
our conventional weapons management and disposal program.
    We coordinate with the military in several ways; at a 
strategic level, through national norm setting and training, 
cooperation in regards to the safe management of ammunition and 
arms depots, coordination of ammunition and arms destruction, 
and support to security sector reform.
    The military is acutely aware that it does not have the 
capacity to adequately manage its ammunition and arms 
stockpiles. They understand the risk that poorly managed 
stockpiles can pose to their own security, as well as to the 
security of the civilian population. In recent years, the 
military has experienced several explosive incidents in their 
ammunition stockpiles which has resulted in hundreds of 
casualties.
    MAG also coordinates closely with the relevant Department 
of Defense actors in the Congo, including relevant U.S. Embassy 
personnel and AFRICOM, and we are currently exploring 
opportunities to work further in conjunction with U.S. 
deployments in regard to explosive ordnance disposal training 
of military personnel.
    We facilitate and support the Department of Defense's 
Defense Threat Reduction Agency missions wherever possible 
across all of our programs. And we believe that the long-term 
presence we have established and the strong relations with 
local, national and regional bodies and authorities provides us 
with often unique access and opportunities for constructive and 
collaborative work.
    The example of Camp Ngashi in northwest Congo is a good 
example of the threat posed by poorly managed stockpiles. In 
June 2007, a military ammunitions stockpile exploded. The 
initial explosion caused a huge fire which burned intensely for 
at least six hours, setting off numerous subsequent large 
explosions. The facility housed large- and small-scale weapons, 
small-arms ammunition, different caliber mortars and rockets up 
to high explosive aerial bombs. Ammunition was also ejected up 
to three and a half kilometers outside of the camp. As a 
consequence, three people were killed, around 100 injured, and 
over 200 families displaced. Unexploded ordnance scattered 
across the densely populated town, seriously damaging schools, 
government and military facilities. MAG emergency response 
teams were then dispatched to the area and tasked with 
unexploded ordnance clearance, which took many further months.
    Now, whilst the movement of arms across borders remains a 
critical concern, there is substantial research concluding that 
the majority of arms used by armed groups come from military 
stockpiles. A recent report concluded that unless the Congolese 
security forces significantly improve the effectiveness of 
their stockpile management, the extent to which the current 
arms embargo, which places no restrictions on arms acquisitions 
by the FARDC, can maintain peace and stability in the region 
will be limited. As such, securing and marking existing FARDC 
armed stockpiles is as critical as is securing borders.
    Based on our current operations, MAG is convinced that the 
destruction of surplus arms, building a successful arms 
management capacity and the necessary infrastructure in 
armories, and the marking of operational arms with a unique 
country code are central to curbing the illicit sale and 
trafficking of weapons in the Congo.
    In closing, I would like to thank the committee for its 
time and the opportunity to present on our range of activities 
and approaches to dealing with the unique challenges that this 
vast and unstable country presents. Thank you very much.
    [The prepared statement of Mr. Komorowski can be found in 
the Appendix on page 54.]
    Mr. Smith. Thank you.
    Thank you all for your testimony.
    I appreciate it, and I appreciate this committee and the 
chairwoman agreeing to have this hearing.
    I think one of the biggest issues that we are trying to 
address here is to draw attention to the situation in the 
eastern Congo. It does not get the publicity that some others 
do. But as you gentlemen have very ably explained, it is a 
huge, huge problem. It is probably the largest humanitarian 
crisis in the world, given the suffering that has happened 
there and continues to happen there. And yet it is not 
something that is regularly discussed in Congress, much less in 
the United States.
    So what we are trying to do in the subcommittee in part is 
draw attention to the problem and then find ways that we in 
Congress and we in the U.S. can help to alleviate it. And I 
think that is sort of the--it is sort of a bad news/good news. 
Certainly you look at what has happened there in the last, you 
know, four decades, you look at the violence in the area--I led 
a delegation that stopped in Goma last year, and the violence 
against women is I think the thing that stands out as the most 
appalling, the rapes that are just accepted as a matter of 
course. It is an overwhelmingly devastating thing to witness 
and to see. But beyond that, you have all the violent gangs 
roaming around, as Mr. Dagne explained. And it is a situation 
that cries out for attention.
    The good news is there are a lot of people over there who 
are making a positive difference. I met with Heal Africa as one 
of the NGOs that is working specifically on changing the 
culture of rape. And that is really what it is. It is beyond 
just the fact that there are some, you know, gangs roaming 
around doing this. It is far too accepted by the general 
population. And trying to change that and give the support to 
the women necessary to change that culture is a very positive 
thing.
    And there are a lot of other NGOs that are actively 
involved there. I have done work with the Eastern Congo 
Initiative [ECI], which is focusing specifically on this region 
and has laid out some pretty clear goals, two of which Mr. 
Prendergast focused on. One is the conflict minerals issue; 
second, being helped with security and governance but then also 
continuing to provide our support for the elections that are 
coming up to make sure they are done in a stable way and, you 
know, make sure that we stay active in that region and get 
involved by making sure that we maintain a regular envoy from 
our State Department to the region, is the fourth goal that 
they state. I think if we stay involved in that, we can truly 
make a difference here. We can save lives, and we can turn this 
region around.
    Because the other thing that really struck me about this 
region, it is a beautiful place. It is rich in natural 
resources. Certainly the minerals you mentioned, but also 
agriculture, the Great Lakes region is there. This is an area 
that has massive potential for a very, very positive outcome 
for the people of that region and for the world if we can just 
help them realize it.
    And then I do believe we have an interest beyond just the 
humanitarian crisis. Certainly, the conflict minerals issue, 
given the fact that we do purchase those items. But this 
subcommittee's particular jurisdiction is on counterterrorism. 
And the instability in a region opens the door for radical 
extremist groups. And as Ms. Sanchez mentioned in her opening 
statement, they are certainly recruiting in that area, even if 
they have not been that active.
    If this region explodes into instability, it is bad for 
global stability and bad for United States national security 
interests. So that is why we are trying to pay attention to the 
region.
    I want to ask specifically, Mr. Komorowski, to follow up on 
the issue of the unsecured ammo dumps, what is being done and 
what should be being done to help turn that situation around 
and get better security on ammunitions?
    Mr. Komorowski. Okay. Thank you for the question.
    We as an organization have our efforts, and we are very 
grateful for the support of the Office of Weapons Movement and 
Abatement to do that. Fundamentally it is about engaging at 
different levels. The perspective that I like to present and 
that is key to our organization is an operational one. So we 
work directly in Kinshasa with the FARDC, with a number of 
high-ranking representatives, both to look at the depots that 
they have there, and we also have teams that then work across 
the provinces, both doing destruction and also doing essential 
armory reconstruction work, as well as basic training----
    Mr. Smith. Can I ask--sorry to interrupt, is this a problem 
where you have got depots that have just wound up being, you 
know, abandoned, neglected, or is this a situation where they 
are ones that the Congo is trying to maintain, they just don't 
have sufficient security around it, or it sounds like both? 
But.
    Mr. Komorowski. Exactly, it is a mixture of both. The 
definition sometimes of an armory or a cache or a stockpile, 
sometimes it is literally four walls, no roof, and then full to 
the brim of various kinds of ammunition; mortars, rockets, 
grenades, occasionally, and we do discover them, MANPADS [Man-
portable Air-defense Systems] as well.
    Mr. Smith. Just left there by the government or, in some 
cases, left there by rebel groups?
    Mr. Komorowski. Frequently by rebel groups. And actually 
they are often resupply points. And as mentioned, a number of 
the groups, earlier today, such as the LRA, we have come across 
a number of what we are told by the community--we work very 
closely with the community to try and get a good insight into 
the legacy, into the history, of what we are finding there. And 
often they are our greatest source of information, directing us 
to where we can find these sources of ammunition, unsecured 
weapons, and so forth.
    But there is also, and it is recognized a lot within the 
reporting, not just that which we provide as an organization, 
by a lot of advocacy groups that are active on the ground, that 
the insecurity of existing military stockpiles is a key problem 
as well. Small Arms Survey recognized in their yearbook, not 
for 2010 but 2009, the diversion from stocks, from official 
stocks, often police, often army, is one of the key providers, 
some of the fuel to the ongoing fire. So the nature of them is 
very diverse. We work in our own way as an organization with 
the resources we have.
    To come back to another point of the question, what should 
be done? I think it is, as Mr. Prendergast mentioned, security 
sector reform. This is a component of that. So it is about the 
wider modalities of that as well. What we are doing is a part 
of the puzzle. Obviously, we believe that it should be done 
with greater coordination and with greater breadth. But it is 
only a part of the picture. It does require the broader 
elements of security sector reform if it is going to have a 
long and lasting successful legacy.
    Mr. Smith. I am out of time. I have more questions, but I 
will come back to them after we get to the other members.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chair.
    Gentlemen, thank you for being here this morning--this 
afternoon.
    Mr. Prendergast, can you give me some sense of the scope of 
minerals production? In other words, it would probably be a 
different percentage for each of the discrete minerals, but how 
big a part of the world's supply of these minerals is the 
Congo, and just to help me understand the scope of what they 
are doing?
    Mr. Prendergast. Thank you for asking.
    There are four particular minerals that come from eastern 
Congo that bleed into the world supply that end up in all these 
electronics products we are talking about. Gold is one of them. 
And then there are what we call the three Ts: tin, tantalum, 
and tungsten. Tin, my guess is around 10 or 15 percent of the 
world supply, Congo. Tantalum is the big one. Because Australia 
withdrew its exports from the market last year, began to stop 
exporting, because they could not compete with the slave wages 
and this kind of criminal network that produces the tantalum, 
that exports the tantalum from Congo, the share of global, the 
Congo's share of global supply skyrocketed somewhere in the 
neighborhood of well over 50 percent. And then in terms of 
Tungsten, it is probably another 10 or 15 percent.
    So, in other words, there are lots of other suppliers, but 
Congo, because it is so cheap, remains a favorite for the 
refiners in Asia for buying these things.
    Mr. Conaway. Any sense for what the gross revenues for the 
bad guys represent?
    Mr. Prendergast. It is so opaque. We have done some 
assessments and started to look. I mean, the Congolese senate, 
for example, did a significant report. They estimated it $2 
billion a year. I think that is an overstatement. Hundreds of 
millions of dollars accruing to the armed groups is a safe 
estimate, but it is a wild guess, because there really is 
almost no trade that goes on in the legitimate market.
    Mr. Conaway. Ted, maybe you have got a sense of this. The 
culture of rape or the weapon of choice of rape must result in 
conceptions. What is the experience of those children once they 
are born? Are they readily accepted into the mothers' families 
or what--you know, we are going to be--you know, those started 
15, 20 years ago. They are going to be reaching young adulthood 
and that kind of thing. What has been the experience of the 
children that result from those rapes? Or is it a big number?
    Mr. Dagne. In the case of Congo, it is really very 
difficult at this juncture to give you really an accurate 
assessment of, you know, this generation of kids, you know, 
growing up; are they accepted or rejected? But I can tell you, 
in the region, and some of whom have carried out this rape and 
attack, some of them came from Rwanda. During the genocide, a 
number of the Tutsi were raped deliberately by the Hutus. And 
there were tens and thousands of kids born. And I met a number 
of them. And what is amazing is that--not only that society 
accepted them, but senior government officials themselves 
adopted deliberately those kids.
    Mr. Conaway. OK.
    Mr. Dagne. So, culturally, it is not like, you know, you 
are born because of rape, and therefore, you are not accepted. 
I haven't seen that.
    Mr. Conaway. Good. OK.
    In 2008, AFRICOM helped plan and lead Operation Lightning 
Thunder, which was a multi-country attack on, I guess, the 
Lord's Resistance Army. Can you give me some sense of did that 
work? Did it help, Mr. Prendergast, to professionalize in some 
small way the Congolese military as they work alongside 
AFRICOM's folks? And could it be expanded, or should it be 
expanded to go after some of these other targeted groups?
    Mr. Prendergast. It did not work. There was clearly some 
advance notice. Joseph Kony got out in time. The leadership of 
the LRA remains untouched since then.
    President Obama has just released his plan, as a result of 
the congressional bill that was passed this year on the Lord's 
Resistance Army. The bill is insufficient. It is inadequate to 
deal with the serious security threat that LRA poses to people 
of Southern Sudan, Central African Republic and the Congo.
    And so our view is that there needs to be, as we look at 
this plan that the President has put forward, and particularly 
as Congress in its oversight capacity looks at it, particularly 
this committee looks at it, we need to really take a very hard 
look at how it is implemented so that resources are provided to 
give a fighting chance to the militaries in the region that are 
on the front lines of trying to contain this significant 
threat, because up until now, what we have provided has been 
grossly insufficient and incommensurate to the damage done to 
civilian populations.
    Mr. Conaway. Okay.
    I have a second round as well, Mr. Chairman.
    Mr. Smith. Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    I appreciate your holding this hearing.
    A couple of years ago, the National Geographic had on its 
cover a picture of poached and murdered gorillas. And 
incidentally, in the article, they mentioned that 5 million 
human beings had been killed in the Congo. That was not the 
cover story. And I am all for gorillas, but, you know, for 
Americans not to understand that this has been the bloodiest 
conflict on earth is horrifying. Because as Samantha Power 
pointed out in her book, you know, genocides happen more 
frequently than we like to admit.
    I think the frustration that I feel is, what can you do to 
solve it? If you read a book like Dambisa Moyo's ``Dead Aid,'' 
she pretty much condemns pretty much all government-to-
government aid. And maybe she is wrong. Maybe she has an overly 
pessimistic viewpoint, but we have seen a lot of the 
kleptocracy. And I think Mr. Dagne points out his visit with 
Kabila in 1996, the gold-plated sofas and Jacuzzis, and you 
know, little of that help trickles down to the average people. 
Unfortunate. With Mr. Smith, I have been to Goma. It is 
unimaginable the conditions that must exist out in the jungle.
    So I think what we are searching for here are constructive 
paths to take. You know, this humanitarian operation by MONUSCO 
[United Nations Organization Stabilization Mission in the 
Democratic Republic of the Congo] may have done more to harm 
the U.N.'s reputation than any other undertaking it has ever 
involved in. This is their largest single commitment, and you 
know, it is problems galore. So how do we solve this problem?
    How do we even know simple things like who we are talking 
to? You know, recently in Afghanistan, we thought we were 
apparently dealing with the top-ranking member of the Taliban. 
It turned out to be an imposter. How do we even know elemental 
things like that?
    And when it comes to identifying and shutting off or 
appropriately regulating coltan or these other minerals it is--
are the Chinese better at figuring out how to secure supplies, 
because the last time we were there, I think we heard that they 
had engaged in some sort of long-term contract arrangement and 
promised to build a road. You know, what is going on here? What 
could guide us as policymakers to make a constructive 
difference? The ball is in your court. Anybody?
    Mr. Prendergast.
    Mr. Prendergast. I think there is a huge opportunity here 
now. I mean, if--we could throw billions of dollars at this 
problem, we could throw tens of thousands of peacekeeping 
troops, it wouldn't make a difference in a place as large as 
Congo with the history of the crisis there.
    What has to be done is to change the incentive structure 
that exists there now. The current incentive is for violent, 
illegal extraction of minerals. If you have the biggest guns 
and you are willing to use terrible atrocities as your primary 
military tactic, you can secure either access to mining or the 
smuggling routes and tax the smuggling routes along the way and 
smuggle these minerals out of there; that is how you make money 
in the Congo today. That is what fuels the war. And the end 
markets are us. So that is the inescapable conclusion.
    So what has to happen if anything is really going to change 
there is you have got to flip the incentive structure. If the 
world demand for these minerals says, okay, we are only going 
to buy minerals that are peacefully and legally mined, then it 
creates a different incentive structure for the people on the 
ground. I don't see how else we can alter that physical 
dynamic, because we simply don't have the resources or the 
troops internationally to make the kind of security--to change 
the security equation on the ground in the same way that our 
ability to affect how people make money, how that gravy train 
gets serviced, as we can if we push for these SEC regulations 
to be strong and we push for a real certification scheme like 
we did with the blood diamonds.
    Mr. Cooper. How long do we wait before we know whether that 
has had an effect or not?
    Mr. Prendergast. It is in our hands really. I mean, the SEC 
is going to promulgate its regulations in the next couple of 
months. It has already shaken up the industry. It has shaken up 
the armed groups. People are trying to figure out--I mean, I 
just literally came from there. Everyone is affected by it. 
They are trying to figure out what the SEC is going to do. 
Every minerals trader, every military official that I talk to 
knows exactly what is going on in Washington.
    In 150 years, go back to King Leopold, go back to Mobutu 
Sese Seko. Nobody ever tried to deal with how the world was 
relating to Congo in terms of our extraction of one of the 
richest natural resource bases in the world. And we wonder why 
this country is completely and totally in crisis for the last 
century and a half. It is because of the relationship.
    Now Congress has made this first step. We have got to back 
it up; the executive branch has to back it up with real 
leadership internationally.
    Mr. Cooper. So this is a celebratory hearing because we 
solved the problem if we have proper enforcement?
    Mr. Prendergast. We have identified the problem for the 
first time, and Congress has taken the first step in moving 
towards what could be possibly a catalytic approach to 
addressing the solution. I really actually think, in 25 years 
of visiting, working and living in the Congo, I think this is 
the first time anyone has taken it seriously, and I applaud 
this Congress for doing so.
    Mr. Cooper. Do the other witnesses agree with this 
optimistic assessment?
    Mr. Dagne. I have a slightly different approach to this. 
Yes, it may contribute to a certain degree to bring about an 
end to the resources that some of the rebels or the commanders 
use.
    But, at the same time, you have to remember that what is 
killing Congolese, is raping Congolese, is not the AK-47, is 
not the conflict mineral resources; it is the culture. It is 
the ideology that is doing it.
    If you take away all the AK-47s, all the ammunitions, they 
would still rape people. They would still use the machetes. 
They would still have instability.
    We have to start to think out of the box and say, how is it 
that we can help? At the same time, we can't be the solution to 
the problem in the region. The region itself, the country 
itself, must work to find a solution. We can help, but we 
cannot solve.
    Mr. Smith. I think, if I could, I want to get to Mr. 
Murphy, but I think my comment would be here, no there is no 
one solution here.
    But I do think that going after the money that funds the 
rebel groups will make an enormous difference. And as you 
mentioned, when we went after the, you know, blood diamonds, 
conflict diamonds, that had a distinct impact in the region 
where that was put in place. You know, the purpose of this 
hearing isn't to say that we have the idea and it is going to 
automatically solve the problem. We are looking to make 
progress. This is one big area where we can make progress.
    The bigger area that has been mentioned is reliable 
security and governance. And that is where the efforts of many 
of the NGOs that are working with the local population, this 
has been ungoverned space for a long time in which various 
criminal elements and rebel groups have filled the vacuum. So 
getting decent security and governance is also a critical step.
    But this is not an insignificant move to take some of the 
money out of the equation if we do it successfully.
    With that, I will turn it over to Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman.
    I actually was hoping to dig in a little bit more, Mr. 
Prendergast, on some of the parallels with what we saw with the 
blood diamonds and some of the differences, whether they are 
cultural differences, that we may see in eastern Congo versus 
what we saw in Sierra Leone or Liberia or Angola or other 
places.
    Can you give just us a little more color in terms of what 
we need to be doing? What we can do at this point--you talked 
about us weighing in the with the SEC, but what should we be 
thinking about as that is going on?
    And then, Mr. Dagne, if you will comment on maybe some of 
the cultural differences that you see between some of the 
places where we have seen some success with restricting access 
to mineral wealth and conflict and what might be different as 
we try to think of solutions in this instance.
    Mr. Prendergast. Thanks, Congressman.
    I think, you know, that the solution, and I want to second 
Congressman Smith's point--I mean, this is just--this is a 
catalytic element of an overall set of recommendations. You 
mentioned the ECI initiative. There are all kinds of issues 
that we have to address in Congo. This is, we think, just one 
of the crucial ones that, as a prerequisite, helps to build a 
momentum towards helping to solve a lot of the problem.
    The key, I think, Congressman Murphy, is certification. And 
that is, you look at and try to draw the analogy with the West 
African issues related to blood diamonds. When there was a 
decision that we would no longer purchase the diamonds that 
were actually helping to fuel the terrible violence in Angola, 
Sierra Leone, and Liberia, then there was a long process. It 
didn't just overnight. We had the United States, Britain and 
many other countries work with regional countries and the 
companies, particularly De Beers, and civil society groups that 
have a vested interest in working on the publicity around the 
terrible atrocities recurring, they came up with a 
certification scheme that eventually created a way for you to 
weed out the bad from the good. And that has now, 10 years 
later, led to three countries that are at peace that have, you 
know, fairly well-functioning diamond markets that help 
contribute to development.
    Mr. Murphy. Do we have a partner in eastern Congo who could 
be the kind of certifiable producer of any of these minerals, 
or is it all so much chaos that you don't even have anybody 
that could meet a certification process?
    Mr. Prendergast. That is the good news, is that the region 
has begun to brace itself for the fact that major change has to 
occur. So a regionally led initiative, and I will defer--I bow 
to Mr. Dagne's point about you got to defer--because at the end 
of the day, if the region isn't buying in, forget it, is this 
international certification effort that has begun with the 
Great Lake states. So the Congo, Rwanda, Uganda, a number of 
states have begun a process. The acronym is ICGLR 
[International Conference on the Great Lakes Region]. And they 
have put together the bare bones, the essentials, of a 
certification scheme in principle. Now they need a dance 
partner. Now they need the United States and other countries 
that are end users of these minerals to come in very strongly 
and work with the governments in constructing as airtight a 
system as possibly can be created in this very difficult 
environment, get the industry to buy in, everyone from Apple to 
Hewlett Packard to Dell. All these companies suddenly realize 
that they can't continue with business as usual because of the 
bill, because of the Wall Street reform bill and the section on 
this thing. They want to be involved in this.
    So it just requires somebody to take the lead. And we think 
that the United States could play that critical role because we 
are the biggest, in gross dollar terms, consumers of the end 
user--end users of the product--of the minerals that are being 
produced there.
    Mr. Murphy. Mr. Dagne, in terms of some of the parallels we 
are talking about with the blood diamonds, are the cultural 
issues parallel, and are there some lessons from what we saw 
that maybe worked in some of the other places? Or are the 
culture issues very different and not very useful in terms of 
things to learn about the approach here?
    Mr. Dagne. I think what I meant by cultural is not to 
suggest that this is strictly a Congolese or Rwandese cultural 
issue. I am talking about the culture of violence, the ideology 
of violence, which is something new that we are dealing with. 
In comparison to the other regions, definitely you had a 
cultural violence in Sierra Leone and Liberia and Angola. But 
if one goes back and looks at, you know, how did we end those 
wars, is it because of the blood diamond, ending the blood? No. 
We have to be practical and say, those bloody wars dragged 
sometimes for over 20 years, and at the end, it was a 
negotiated settlement, whether it is with the MPLA [Movimento 
Popular de Libertacao de Angola] and UNITA [Uniao Nacional para 
a Independencia Total de Angola] in Angola or Sierra Leone or 
for Liberia.
    I think, when I suggested, you know, that the conflict 
mineral legislation and certification process would help, but I 
think if we put our hope in that, you know, we are going to be 
disappointed because before the diamonds, before the gold, you 
had violence there; even in their absence, you would have 
violence.
    The other thing also we need to take into consideration is 
that the certification process only applies to American 
companies. Who is going to prevent China or any other company 
from doing business? That will continue.
    The other important thing to remember is also, what are the 
impacts on the locals, not the rebels, not the, you know, 
corrupt commanders, but the millions of Congolese who depend on 
these resources for centuries? Do we have an alternative 
mechanism for them when the decision that we take could affect 
their livelihood, you know? Is there a mechanism in place to 
say, okay, here are the alternatives, this is what we are going 
to do?
    I think the important thing to think about is, you know, 
the countries in the region itself, they have been doing a 
number of things. We need to be able to coordinate those 
activities in order to have a maximum impact. Look at the 
decision of Rwanda and Congo just a year and a half ago to 
jointly move against the negative forces. They were able to 
reduce their, you know, effectiveness significantly and 
dislodge them from a number of areas.
    Now, if you have a more coordinated effort like this, you 
take away all these negative forces, some of whom can be 
integrated into society; over 20,000 civilians returned just in 
1 year because they were being held hostage by those negative 
forces. Then you need to have an infrastructure in place to 
govern so that the basic necessities for the people can be 
provided, including security.
    Mr. Smith. Thank you.
    And I think we would certainly agree that there needs to be 
a more comprehensive solution.
    I do think the money drives a fair amount of it. And I 
guess what you would try to do is you would try to set up, 
through the certification process, a way for legitimate people 
to get access to that. It is not the entire issue, but I think 
money drives a lot of this. Well, it certainly drives the 
criminal activity. But I think also it gives the resources to 
the rebel groups out there to sustain them. They have to find 
resources.
    I mean, this is true of any insurgency. Cutting off the 
source of that money is at least a critical first step.
    But I totally agree with Mr. Dagne that it is not 
sufficient in and of itself.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    You mentioned that the--we caught the head of the CNDP and 
tried to get back into Rwanda, and since then, that 
organization has ceased to be a functioning organization. It 
may have splintered. And this committee is terrorism and 
unconventional threats. We have got some experience with 
cutting the heads off of snakes. Should that be a focus as 
well, to go after the leadership of these other negative 
groups, as you called them?
    Mr. Dagne. I think it is important because of the 
leadership of some of these rebel groups, and I think I would 
describe them also as terrorist groups. Now, they are not being 
described as terrorist groups because they are active in 
Africa, but the act that they carry out, according to any legal 
definition, is terror against the civilians. And some of the 
leadership are here in the United States.
    Mr. Conaway. So the same kind of a--well, let me ask this, 
Mr. Prendergast or others. If we, as we should, deal with the 
certification of minerals, what is next? Where do these 
negative groups, rebel groups, terrorists, which I agree with 
you, Mr. Dagne, what do they do next? I mean, is it--they never 
just lay down, because it is far easier to hold a gun on 
somebody and make them work for you than it is to work 
yourself. And so, if we were able to effectively control that 
avenue, is there something else they pivot to that we then have 
to start Whack-A-Mole there?
    Mr. Prendergast. I think that, you know, the three main 
groups that Ted talked about in his testimony, the FDLR, the 
ADF and the LRA, the three main sort of foreign insurgent 
groups inside on Congolese territory, these three need to be 
subject to intensified counterinsurgency operations involving 
the governments in the region, involving the peacekeeping 
forces in the region.
    The efforts so far, again, we have already talked about the 
LRA, led by the Ugandan government, has eroded the LRA's 
capacities. In other words, they used to be a fairly large, in 
the thousands, tens of thousands, over 10,000 fighters; now 
they are a band, a criminal band of a few hundred. They still 
do terrible damage in the places that they operate, but they 
have been eroded significantly by counterinsurgency operations. 
Now is the time to finish them off, to really cut that head of 
Joseph Kony and to find him and take him out the theater in 
some way or another.
    With the FDLR, which is the Rwandan militia that came 
across the border, as Ted talked about in the history, during 
1994, during the genocide, the core capacity has been eroded 
dramatically. I mean, in 1994, there were 80,000 to 100,000 
armed elements from the Rwandan--who committed--who perpetrated 
the Rwandan genocide, were running around the eastern Congo. 
Now there's probably 4,000, maybe less. I mean, the numbers are 
wild estimates, 3,500 to 4,000.
    And their capacity has been eroded dramatically because of 
counterinsurgency operations, largely driven by the Rwandan 
government, though the humanitarian implications of these 
operations has been dramatically negative for the people of the 
Congo. Now that there are those 3,000 or 4,000 left, we need to 
target those operations, go after the international support 
that they have, as Ted said, and really find and hone the 
elements of the regional militaries and the peacekeeping forces 
to go after those elements to try to bring them down.
    Mr. Conaway. Yeah, one of the tools that we use on the 
existing terrorist groups is we go after their banking 
relationships and those things. These organizations are 
sophisticated enough they are using the banking systems to 
facilitate cash-flow funds, or would that be an effective tack 
as well?
    Mr. Prendergast. It is very different I think because of 
the mineral smuggling. Because the FDLR has been----
    Mr. Conaway. So they are cash basis?
    Mr. Prendergast [continuing]. Ensconced in these areas and 
they are able to smuggle, particularly gold, through Uganda. I 
think that, we just need to figure out how we can get at that 
source, because as Congressman Smith said, if we don't arrest 
the money issue, you know, we are just going to be whistling 
Dixie.
    Mr. Conaway. Give me a sense of what--you said Americans 
are the bulk of the end users. But as China and India's 
economies grow, they will surpass us at some point. Give me a 
sense of what the percentage is of manufacturers based in 
China, India, and the United States. Can we get a sense of 
where that split comes? Because I agree that getting China--
India maybe less so--but getting China to agree to these kind 
of sanctions may be a little more difficult.
    Mr. Prendergast. A terribly important question. And I just 
want to correct something that Ted said; the legislation that 
Congress passed was not just for American companies. It was 
anybody who wants to import into the United States. Now, 
because in the electronics arena, we have the highest end 
products in terms of consumers, China is not going to say, Hey, 
because we want to maintain some supplier who supplies 10 
percent of the tin from Congo, we are not going to export to 
the United States anymore? That is not going to happen. They 
are already complying. They are trying to figure out how the 
smelters based in China and other countries can comply.
    So I think as long as we are affecting through the 
legislation and implementation, those people that want to 
import into the United States and work with our European allies 
to create similar legislative frameworks so that we are talking 
about a fairly large consumer base that is rejecting the 
purchase of minerals that come from violent and illegally 
extracted sources, I think we are going to have a chance of 
altering the entire marketplace, including India and China.
    Mr. Conaway. Thank you, Mr. Chairman.
    Mr. Smith. Can you talk a little bit about the U.N. mission 
there? It is not well thought of by the local population in 
terms of its efficacy because they don't have a lot of 
authority, so their presence there is not thought of as having 
been that helpful, based on the people that I talked to when I 
was there. On the other hand, you know, there is concern, you 
know, if you simply pull them out, again, you are leaving a 
vacuum.
    How effective has the U.N. been? And, more importantly, 
going forward, what is the best course of action in terms of 
maintaining the mission or changing it or getting rid of it?
    And whoever. Mr. Komorowski, you haven't spoken in a while. 
First crack there.
    Mr. Komorowski. Thank you. Yeah, it takes more than a 
rebranding from MONUC [United Nations Organization Mission in 
the Democratic Republic of the Congo] to MONUSCO [United 
Nations Organization Stabilization Mission in the Democratic 
Republic of the Congo] to solve the problem. I absolutely 
endorse many of the points you made there.
    I think there are a couple of points. There is no doubt 
that, to date, the perception--and it is a bit more than 
perception--the reality on the ground is that this force varies 
in size, but as has already been mentioned, one of the largest, 
if not the largest, standing U.N. force in the world to date.
    That is still not adequate for the kind of scale of--the 
physical geographical sale that we are talking about. But maybe 
there is a slightly different problem. It is not so much the 
numbers, but it is the focus. It is the targeting and also, 
bluntly, the terms of engagement.
    Mr. Smith. At the most basic level, what do they do? They 
are there. What is their mission? What do they do?
    Mr. Komorowski. They are there to provide security for the 
civilian population, with varying degrees of success. I will 
happily say one point for the record, the many times I have 
been there, I have met with many different members of the U.N. 
on the ground and of MONUSCO. Often, there is a real issue with 
the quality of the composition of the forces on the ground. 
They are not coming from some of the nations with the finest 
militaries that can provide them, and often so, you are not 
looking at individuals on the ground who are particularly 
thrilled at their mission status.
    We talked earlier about incentives and incentivizing, 
whether it be through the mineral supply chain or whether it be 
through security sector reform. We haven't touched on DDR 
[Disarmament, Demobilization and Reintegration]. The same 
exists, I think, for that force on the ground. They are not 
properly equipped to do the job, but I also think it is about 
their tasking. And oftentimes, they are not in the right areas, 
and frequently as well, their terms of engagement and when they 
are going to go. The times where they are most needed, their 
remit does not allow them to get sufficiently engaged. I think 
that is probably as directly as I would put it.
    Mr. Smith. And when does that mission complete? It is for a 
set amount of time. When is it up where it would have to either 
be renewed or end? Do you happen to know that?
    Mr. Komorowski. Not off the top of my head, no.
    Mr. Smith. Mr. Dagne.
    Mr. Dagne. It was just renewed it in May, so it would have 
to be renewed again next year in June.
    Mr. Smith. Okay. Mr. Prendergast, Mr. Dagne, just quickly, 
do you think it should be renewed? What role should the U.N. 
play, going forward?
    Mr. Dagne. Just to go back to answer your question about 
the effectiveness and whether they should be renewed or not, I 
think the record has been mixed. It is one of the largest U.N. 
peacekeeping missions in the world. Currently, you have over 
19,000 armed, uniformed personnel. I think they have done a 
number of good things. Their presence provided at least some 
relative stability and allow humanitarian delivery, and 
provided some protection to the civilians. In their absence, it 
would have been worse.
    Mr. Smith. OK.
    Mr. Dagne. At the same time, they could have done better. 
The security sector training that you are talking about is 
provided by the U.N. and so forth. I think it is important as 
you move forward, you know, is there a need to have such a 
large peacekeeping force just to be there or can the mandate be 
changed in order to accommodate, I think, the needs on the 
ground. I think, in my view, perhaps a review of that is 
necessary, and the security council in May significantly 
restructured the mandate, and I am pretty sure, I think, come 
next year, you know, it has to be reviewed once again.
    Mr. Smith. OK. Mr. Prendergast.
    Mr. Prendergast. From what I have seen on the ground, you 
know, one of the things that is positive is that they help keep 
the roads open and for commercial traffic in some places 
through their patrolling. That is a positive. It is sort of a 
byproduct of their existence and their presence on the ground. 
That's not saying much.
    I think in individual areas, at the behest of particular 
commanders of units that are deployed into different places, 
they have done targeted capacity building for the FARDC for the 
Congolese army. That is a very helpful thing, and more of that 
could happen in terms of professionalization and respect for 
human rights of the Congolese army.
    Making decisions on the ground, operational decisions to 
protect civilians in localized areas, has made a difference. 
Most units don't. And therefore, they are spectators for 
terrible human rights atrocities. So it is strengthening their 
mandate in New York so that you can strengthen the hands of 
commanders on the ground who want to do that kind of stuff is 
really important.
    And then, finally, something that has been missing all 
along is some kind of special forces capacity to actually 
undertake targeted military operations against both foreign-
armed groups and Congolese-armed groups that are the spoilers 
for continuing violence and instability.
    So looking in the course of the next year for re-upping the 
MONUSCO mandate and looking at whether we can recruit a nation 
to contribute that kind of capacity, that would actually make, 
potentially make a difference in the overall scheme.
    Mr. Smith. That is something our committee works on a great 
deal. We work with the Special Operations Command here in the 
U.S., and also internationally and NATO and other places, and 
it is a very specialized skill that not a lot of militaries 
possess and is very much in demand at the moment in many, many 
places. But certainly, I can see where that would be helpful.
    Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    How do I know, or how does the manufacturer know whether 
the tantalum in this phone is clean or not? Is it Australian, 
is it Congolese, is it clean Congolese? Each diamond is unique, 
but a fungible commodity like tantalum or tin or even refined 
tantalum or tin, how do you know? You just have to trust the 
supplier?
    Mr. Smith. Well, I don't. If I could interrupt there, I 
don't think technically each diamond is unique, but if you 
happen to have a diamond ring right now and were to look at, I 
think you would have the same basic problematic question of 
telling by looking at it, where it came from. I don't think it 
is unique in that sense. I think it is a matter of, you know, 
regulating the supply chain aggressively. So correct me if I am 
wrong in that, but I don't think there would be any difference 
in terms of the difficulties of making sure that this is 
adhered to for diamonds than it would be for basic minerals. I 
could be wrong on that.
    Mr. Prendergast. Already, the industry associations that a 
year ago were saying precisely what you were saying, 
Congressman, now are working very aggressively to try to comply 
with these regulations and talking directly to many of the 
groups, many of the companies' senior executives and the people 
on the ground who are taking trips to Congo trying to figure 
out how to do it. There is much more clarity now, based on the 
United Nation's panel of experts' work, based on a lot of 
different organizations that have exposed how these supply 
chains work. It is not a big mystery. It might be a mystery to 
us sitting in Washington, but it is not a mystery to those that 
actually take the time to study these supply chain networks.
    So we can figure out where stuff comes from. And there are 
ways to do that. You just have to set up monitoring, 
observation, and tracing mechanisms that the industry can 
comply with that will allow us to certify where this stuff 
comes, whether it is coming from a mine that does damage to 
civilian populations or not.
    This is all doable. And the more that it is studied, the 
more light that is shined on it, particularly by the U.N. panel 
of experts that released yet another report yesterday exposing 
in great detail how this supply chain works, we are learning 
more and more about how to do this, and the industry groups 
are, have shifted from a very unhelpful position to now trying 
to figure out how to comply and how to figure out how you would 
know what is in any particular electronics component that ends 
up in the United States.
    Mr. Cooper. Shift to people for a second. How do we know 
who the war criminals are? Who was, in fact, a member of the 
LRA or the Mai Mai; or who may have been a member but not 
committed an atrocity; who is not a member of anything but 
committed an atrocity. How do you know?
    Mr. Dagne. I think with the LRA, FDLR, and CNDP we do have 
good knowledge of who the leaders are, who the commanders are. 
And I will be happy to provide those names and the command 
structure if you are interested.
    Mr. Cooper. But so many of the atrocities are committed by 
low-level troops, right?
    Mr. Dagne. Of course, you have the rank and file who commit 
the atrocity, but who gives the order, who gives the command, 
is primarily responsible for it.
    Mr. Prendergast. Yeah. I think it is really important to 
understand that these aren't just, you know, troops that are 
completely out of control, running around raping, pillaging, 
and looting. There are very specific war strategies being 
pursued by the various armed groups in Congo, whether it is the 
government army, whether it is the foreign-armed groups, or 
whether it is some of the Congolese militias. There are 
particular interests being pursued. And when you give a green 
light to your rank and file that you now, as a strategy, as a 
tool of war, we are encouraging you to rape in the context of 
our attacks on particular civilian populations, that is a war 
crime or crime against humanity.
    And finally we are getting the ICC to investigate these 
linkages. We are seeing now indictments of particular 
individuals in Congo where related to the recruitment of child 
soldiers forcibly and sexual violence as a war crime. And as 
the evidence accumulates, it is going to be harder and harder 
for people to argue that this is, you know, a violent, out-of-
control situation. There are command and control issues that 
one hopes will be exposed by these indictments and that some of 
these people will actually end up spending the rest of their 
lives in jail for it.
    Mr. Cooper. I have no more questions, Mr. Chairman.
    Mr. Smith. Mr. Conaway.
    Mr. Conaway. No questions, just a quick comment.
    Mr. Dagne, you said earlier that you believe the Congolese 
have to come up with their own solutions. And I couldn't agree 
more with you. I think the folks in Odessa, Texas, are better 
at solving the problems in Odessa, Texas, than anybody in D.C. 
It is heartening to hear someone as informed as you are about 
these issues make that statement, that we really do have to 
look to the Congolese themselves and then help them do it.
    In that vein, is there leadership in Congo that can provide 
the ideas that we can then help with as opposed to coming up 
with our own ideas and trying to put them over--implement them 
in the Congo? Are there folks there that we can work with?
    Mr. Dagne. There is a government in Congo, was elected, 
President Joseph Kabila, and they have position groups, a 
functioning parliament, and we have been working with that 
government for the past decade. Is it ideal? Is it purely 
democratic? No. There is a lot more work that needs to be done. 
The point I am making is that in order for us to have an impact 
on the ground, we need to work with them, not come with a 
solution and say, This is what is best.
    Mr. Conaway. Exactly. Where is their list of solutions they 
have come up with themselves and said, Here are the things that 
we are going to make happen; can you help us with these, as 
opposed to us coming with that list and saying, Here's some 
good ideas. What do you all think?
    I mean, is there that list and does it include this 
minerals management programming and everything else, or is 
there something else on that list that they themselves believe 
is the right way to go at this?
    Mr. Dagne. Yeah. I can give you some examples on the 
security sector for the Congolese themselves have been asking 
in order even to control their own commanders. Not long ago, I 
think about 5, 6 months ago, the president himself ordered the 
arrest of a senior general because of abuses that his units had 
carried out. Even on the conflict diamond issue, the minister 
of mining himself came and asked how we can help him. Use of 
satellites, for example, to identify bad areas and good areas.
    So they do come up and ask from time to time for help. And 
I think what is important, like when I said the region, they 
had come up, Rwanda, Burundi, Congo, and established a 
structure in order to ensure transparency on the conflict 
mineral issue. And that can be strengthened and coordinated. 
There have been other activities. For example, a European-based 
group that had been taking, you know, satellite photographs of 
some of these mines, and basically pushing that into a database 
identifying who controls it.
    For us to be able to have an effective result, we need to 
know on the ground. We don't have that kind of presence. You 
know, who is mining it? Who is the rebel commander there? Is it 
clean? Is it possible that----
    Mr. Conaway. Isn't that something that the Congolese should 
be doing for themselves?
    Mr. Dagne. Yes. Precisely. That is what I am talking about, 
the coordination with the Congolese.
    Mr. Conaway. Alright. Let me ask one other thing, and any 
of you can answer. The post-conflict diamond era in Sierra 
Leone and Liberia and Angola, the rank-and-file human beings 
there, is their quality of life any better today or have they 
just swapped one set of miseries for a new set of miseries?
    Mr. Dagne. I think it is very difficult to say, you know, 
that their lives have improved. I can give you a number of 
examples from Angola. I was there.
    Mr. Smith. If I may, not to interrupt you, but certainly it 
has got to help that there aren't armed gangs running around 
shooting people. Who, I mean, that is not to say that their 
economy has taken off. But I find it hard to believe that if 
you--if a civil war is going on in your neighborhood, and then 
a civil war is not going on in your neighborhood, I just got to 
believe that is a better situation.
    Mr. Conaway. Well, maybe the civil war is still going on.
    Mr. Dagne. The question that I thought was asked was if 
their livelihood has improved, not the security on the ground.
    Mr. Conaway. Right. Just one set of miseries for a new set 
of miseries.
    Mr. Dagne. The day-to-day life of the individual once they 
are demobilized.
    Mr. Smith. Right. Day-to-day life. And I am sorry to keep 
arguing.
    Mr. Conaway. Reclaiming my time.
    Mr. Smith. But the livelihood, certainly I get that. Well, 
I have made my statement. Go ahead.
    Mr. Dagne. To answer your question, the day-to-day life, 
once they are demobilized, for a number of them, they are 
either integrated into the regular forces. But have they been 
given training ----
    Mr. Conaway. I am not talking about the demobilized. I am 
just talking about the rank-and-file citizen who is out there 
who is the victim of both sides of the civil war that was going 
on, that is not now going on, are their lives any better today, 
post-conflict diamond controls, than they were before? Or are 
they just as miserable now, they just got different miseries?
    Mr. Dagne. No, no. I think when you look at the overall 
picture, definitely.
    Mr. Conaway. They are better off.
    Mr. Dagne. For example, just Sudan. Five years ago, they 
signed an agreement. For me, when I look at the registration 
for primary school for girls, it had tripled. And that's 
progress. When I look at, you know, people, you know, going to 
school and having access to medical care, that is progress 
which they didn't have before. The same thing can be said about 
the end of the war in Angola. You know, you see a lot of 
construction taking place, schools being built.
    Mr. Conaway. So their lives are better?
    Mr. Dagne. Yes, their lives are better.
    Mr. Conaway. You said first that they weren't, but now you 
are saying they are better.
    Mr. Dagne. No, I thought you asked about--maybe I heard it 
wrong--I thought you asked about those who are demobilized once 
they are.
    Mr. Conaway. No. No. Just the overall folks who are the 
victims of whatever set of atrocities are going on, whether it 
is from machetes or AK-47s, are they better? What I am hearing 
you say is yes, life in Angola today is better than it was when 
diamonds were being mined by the negative groups and sold.
    Mr. Dagne. Yeah. Definitely, in every case you end the war, 
the focus becomes on reconstruction and development. And that 
improves the lives of people.
    Mr. Prendergast. There really is no comparison. I mean, 
three countries that had some of the highest rates of 
displacement in the world; people were living, moving from 
place to place escaping these terrible atrocities. And today, 
they are largely secure. Yeah, their economic growth rates 
aren't off the charts, but it is an extraordinary difference to 
not be living in an internally displaced camp or a refugee camp 
to be able to go home and try to eke out a living.
    Okay, they are a long way from being a roaring economy, but 
to have the chance to rebuild your communities and your lives, 
that is what is happening in Liberia and Sierra Leone and 
Angola today. And those people, and just your point is 
reinforced. It is to let's give those countries a chance and 
the people themselves to do it themselves. You take away that 
layer of conflict and people get on with their lives.
    Mr. Komorowski. I think I would echo the two former 
speakers. On the subject of Angola, which is another country in 
which MAG works, we have worked through a period of time 
immediately post-conflict through a resurgence of the conflicts 
and to the current day as well. And, certainly, the point Mr. 
Prendergast made about the displaced peoples and supporting 
initially all of the work with UNHCR [United Nations High 
Commissioner for Refugees] repatriation, et cetera, the ability 
now, I think the key word that is important here is the ability 
for communities and authorities at local regional and national 
levels to actually do some planning; to actually start looking 
at not just the stabilization of the communities, but planning 
reconstruction efforts, which we are seeing in the provinces in 
which we are working in Angola.
    It is a marked difference. And I would pose comparison to 
Sudan, DRC, et cetera; other countries which we are working 
where the threat and the regional threat and the insecurities 
such that those processes are a long way down the line. And 
that is a significant difference. And you genuinely see it in 
the face of people with whom you are working. You know that 
they are aware that they are not living under the imminent 
threat of the barrel of a gun as opposed to some of the other 
communities we have been mentioning in the likes of Eastern 
Congo.
    Mr. Smith. Thanks. I just have two final questions, both 
for Mr. Komorowski, but you can comment as well. The Department 
of Defense, AFRICOM, is not terribly involved in the Eastern 
Congo, is my understanding. But in your work in that area, what 
sort of relationship do you have with our DOD? And then the 
second question is about the Congolese army. We have talked 
around it a little bit. They are a significant part of the 
problem, both in terms of not being able to provide security in 
their country, but then also many members of the Congolese army 
actually do occasionally wind up preying on the population and 
becoming some of those rebel groups.
    Could you walk us through are we making progress on making 
the Congolese army better? At least, we do see the number of 
times they turn on the population making them better. And then, 
like I said at the outset, the question about you, the 
involvement of our Department of Defense in terms of helping 
with some of the issues we have talked about today.
    Mr. Komorowski. Okay. So to take the two points separately. 
First of all, the engagement of my organization, Mines Advisory 
Group with the Department of Defense and its various agents and 
operators. We have a body here also in Washington so we 
coordinate very closely with the Office of WRA, Weapons Removal 
and Abatement, and so we are made aware when there are going to 
be DTRA [Defense Threat Reduction Agency] or AFRICOM missions 
and personnel deploying.
    So one of the key things we are providing is intelligence, 
is a clear understanding from our staff and our operations on 
the ground of the picture that is emerging there on a day-to-
day basis. So that is one of the very practical ways in which 
we are engaged in working with the DTRA as well. We have, on 
occasion, actually been tasked to deliver operations as a 
follow-up to assessments that they have made. For example, in 
Burundi there was a DTRA assessment, and it became apparent 
that there were a number of MANPADS, numbering more than 300--
--
    Mr. Smith. I should say, by the way, Defense Threat 
Reduction Agency is DTRA, for the uninitiated.
    Go ahead.
    Mr. Komorowski. Apologies. Yes, thank you. So on the basis 
of that Defense Threat Reduction Agency assessment, there was 
in excess of 300 MANPADS--man-portable air-defense systems--
that were located. And as a result of MAG's cooperation with 
that assessment, we were able to carry out the destruction with 
U.S. support as well. So that is one very practical example. 
But across the piece, we are essentially tied in and working 
with AFRICOM as and when there is a presence on the ground, 
mainly through briefings. I don't know if that adequately 
answers----
    Mr. Smith. It does. That is enormously helpful.
    Mr. Komorowski. So to take the second question about 
working with the Congolese military, I think it is very 
important to make clear from the outset that MAG's engagement 
with the military is very much, as I mentioned, within the 
province of weapons----
    Mr. Smith. If I may, I am not actually talking about your 
particular engagement, just as you engage with them, your 
assessment of their capabilities. And, as I said, two big 
problems: Number one, they are not providing security; number 
two, in many instances, they are part of the problem, the 
individual members in the Congolese military.
    How would you assess those two statements that I have made, 
and is getting better? Is it getting worse? Where is that 
headed? And that would be for all three of you.
    Mr. Komorowski. Sure. I think one of the key problems that 
we deal with is the rotation or the movement, the change, the 
instability in terms of the structures with which we are 
working. So I mentioned in my submission that the building 
relationships of trust and an understanding of the role that we 
as an organization and other entities bring in is really key.
    When those are built and when those individuals are then 
moving on, and we see that frequently, it takes the process 
back. So building long-term reform with regard to the military 
capacity for justice building, et cetera, that is slightly out 
of our province. But I think that that turnover is unhelpful in 
that respect.
    I think the second point, as regards the Congolese military 
being part of the problem, again, I think it was mentioned 
earlier about at one point, Kinshasa was the perception of 
Congo. What we find as well is that the further away you get, 
the looser the chain of command. And I think that is one of the 
key issues as well in terms of how things are operating the 
further away that operations are from central command.
    It is not a particularly joined-up strategy or structure we 
see on the ground. And that is an issue in terms of how the 
tasking works.
    Mr. Smith. Gentlemen, do you want to offer your thoughts?
    Mr. Prendergast. Only one quick point, which is that for 
SSR to have a chance of working, it has got to be a multiyear, 
multidonor effort. And we need higher level engagement, because 
the kind of basic things, building blocks of army reform in the 
Congo, the kind of things you would want to do, reforming just 
how people are being paid and ensuring that they are paid; 
constructing barracks. When I used to work for an International 
Crisis Group, we went around and did a survey of all these 
barracks and talked to the soldiers and their families and 
stuff and it was worse than a refugee camp. You know, these 
guys. And then we are, like, wondering why so much looting goes 
on in the vicinity of these camps you know, and its direct. 
Their commanding officers are just pillaging these guys. They 
are taking everything that comes down the chain.
    So there is basic reforms of how people are paid and how 
they are trained and how they are then held accountable as 
soldiers for their activities.
    Mr. Smith. Is it getting any better or, in recent years or 
is it just about where it's at? OK. Let the record reflect he 
shook his head no.
    Mr. Dagne.
    Mr. Dagne. I don't think it has improved. I think it has 
been terrible over the past 5 years. Even, I think, with the 
ongoing security sector reform, I don't expect improvement to 
come any time soon as long as those who are carrying these, you 
know, attacks are not held accountable. Accountability is just 
as important, and we haven't seen much of that.
    Mr. Smith. Thank you. I have no further questions.
    Mr. Conaway?
    Well, thank you. That was very, very informative. I really 
appreciate the testimony from all three of you, and we will 
continue to work on this issue and in that area, and look 
forward to working with you. Thank you.
    We are adjourned.
    [Whereupon, at 3:30 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                           November 30, 2010

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           November 30, 2010

=======================================================================



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
